Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




      Medicare Payments for
     Nail Debridement Services




                    JANET REHNQUIST
                     Inspector General

                        JUNE 2002
                      OEI-04-99-00460
                    OFFICE OF INSPECTOR GENERAL

                                        http://www.oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspection reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                                      EXECUTIVE SUMMARY

PURPOSE

          To determine the appropriateness of Medicare payments for nail debridement services.


BACKGROUND

          Podiatry is classified by Medicare as a single service speciality. Generally, this means
          podiatrists can be licensed to practice medicine within the limited scope of podiatry. While
          Medicare reimburses podiatrists for several hundred different services, nail debridement is by
          far the single largest paid service. It accounted for almost one-fourth ($233 million of $1
          billion) of all Medicare payments to podiatrists in Calendar Year 2000.

          We focused this inspection on determining the appropriateness of Medicare nail debridement
          payments. In doing so, we used a medical review contractor to examine beneficiary medical
          records to assure that payment was based on documented medical need. The contractor was a
          practicing podiatrist, and an active member of the American Podiatric Medical Association.

          Nail Debridement

          Nail debridement involves removal of a diseased toenail bed or viable nail plate. This may be
          performed manually with an instrument, or with an electric grinder.

          Podiatrists generally provide nail debridement to patients diagnosed with onychomycosis (i.e.,
          mycosis or mycotic toenails). Mycosis is a chronic, communicable infection caused by a fungus
          which is particularly prevalent in elderly people.


FINDINGS

          Medicare Inappropriately Paid about $96.8 Million for Nail Debridement and Related
          Podiatry Services

          Almost one-fourth (22.7 percent) of our sample nail debridement claims did not have adequate
          medical justification to support Medicare payment. We estimated that Medicare
          inappropriately paid $51.2 million for nail debridements in Calendar Year 2000.


                                                     1
Medicare Payments for Nail Debridement Services                                               OEI-04-99-00460
          Furthermore, our sample showed more than half (60 percent) of the inappropriately paid nail
          debridement claims contained related podiatry services. When a nail debridement payment is
          determined to be inappropriate, all other podiatry payments for services related to the nail
          debridement are also inappropriate. The related services would not have been performed in
          absence of the nail debridement. Medicare paid $45.6 million for such related services.


RECOMMENDATIONS

          In about one in every four cases, the medical need for nail debridement was not documented in
          beneficiaries’ medical records. Further, more than half of the inappropriate nail debridement
          payments had other related inappropriate payments. Medicare inappropriately paid $96.8
          million for such services in Calendar Year 2000.

          Even considering the possibility of poor documentation of medical records, the extent of the
          problem indicates close scrutiny is needed. At a minimum, the problem suggests medical
          records are not documented as required for Medicare payments. More seriously, it suggests
          that Medicare paid for services not needed and services not provided.

          Accordingly, we recommend that CMS require:

          <	         Medicare carriers to closely scrutinize payment for nail debridement services through
                     medical reviews. Carriers should require podiatrists to adequately document the
                     medical need for all nail debridement services.

          <          CMS carriers to collect the overpayment we found in our sample.

          <	         CMS Regional Offices and carriers to educate podiatrists on Medicare policy for
                     payment of nail debridement claims.


AGENCY COMMENTS

          The Centers for Medicare & Medicaid Services (CMS) commented on our draft report. They
          concurred with all recommendations. Specifically, CMS will continue to require contractors to
          maximize the effectiveness of their medical review strategy. CMS will also collect the
          overpayments identified in our sample, and educate podiatrists on Medicare policy for payment
          of nail debridement claims.

          The full text of CMS’ comments on our report are in Appendix B.

                                                        2
Medicare Payments for Nail Debridement Services                                                  OEI-04-99-00460
                                       TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


FINDINGS


          $96.8 Million Inappropriately Paid for Podiatry Services . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


APPENDIX A                Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


APPENDIX B                CMS’ Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17





                                                                  3

Medicare Payments for Nail Debridement Services                                                                        OEI-04-99-00460
                                                  INTRODUCTION

PURPOSE

          To determine the appropriateness of Medicare payments for nail debridement services.


BACKGROUND

          Medicare is a Federal health insurance program for individuals age 65 and older, and for
          certain categories of disabled people. Medicare was authorized in 1965 by Title XVIII of the
          Social Security Act. The Centers for Medicare & Medicaid Services (CMS) administers
          Medicare, the nation's largest health insurance program, covering approximately 39 million
          beneficiaries.

          Under Medicare, podiatry is classified as a single service speciality. Generally, this means
          podiatrists can be licensed to practice medicine within the limited scope of podiatry. Some of
          the services that podiatrists may receive Medicare reimbursement for include nail debridement,
          surgical excision of affected nails, and topical treatment of the nail. Podiatry services performed
          within the scope of applicable State licenses are generally reimbursable under the Medicare
          program.

Nail Debridement

          Nail debridement involves the removal of a diseased toenail bed or viable nail plate. This may

          be performed manually with an instrument, or with an electric grinder.


          Podiatrists generally provide nail debridement to patients diagnosed with onychomycosis (i.e.,

          mycosis or mycotic toenails). Mycosis is a chronic, communicable infection caused by a fungus

          which is particularly prevalent in elderly people. Clinical evidence of mycotic nails can be

          demonstrated by one or more of the following conditions:


          <          nail hypertrophy - thickening of nail, 

          <          discoloration of nail,

          <          subungual debris - situated under the nail, or

          <          onycholysis - loosening or separation of nail from the nail bed.





                                                         4
Medicare Payments for Nail Debridement Services                                                 OEI-04-99-00460
Medicare Coverage of Nail Debridement

          Medicare covers nail debridement when at least one of the following three conditions exists:

          <	         Medicare covers nail debridement for beneficiaries with systemic conditions involving
                     neurological or vascular diseases. Such conditions can cause severe circulatory
                     problems or diminished sensation in the legs or feet.

          <	         Medicare covers nail debridement for ambulatory beneficiaries with clinical evidence of
                     mycosis of the toenail, marked limitation of ambulation, and pain. Additionally,
                     ambulatory beneficiaries with a secondary infection resulting from one or more mycotic
                     toenails may be covered.

          <	         Medicare covers nail debridement for non-ambulatory beneficiaries with clinical
                     evidence of pain or a secondary infection resulting from one or more mycotic toenails.

Medicare Cost for Nail Debridement

          Over the past 5 years, podiatry services have been among the top 25 Medicare reimbursable
          services. In Calendar Year 2000, Medicare payments to podiatrists exceeded $1 billion,
          making them the highest reimbursed non-physician single service specialty group. This was
          more than double the reimbursements received by the second highest reimbursed group --
          chiropractors.

          Medicare reimburses podiatrists for several hundred different services, however nail
          debridement was by far the largest paid single service. In Calendar Year 2000, Medicare paid
          $233 million for nail debridement services, accounting for almost one-fourth of about $1 billion
          in total Medicare payments to podiatrists.


METHODOLOGY

Scope

          We evaluated the medical necessity of nail debridement services in Calendar Year 2000. We
          contracted with a Podiatrist to review medical records for 110 randomly sampled nail
          debridement claims. The contractor also reviewed all other podiatry services that were
          performed on the same date as the nail debridement service to determine if they were related to
          the nail debridement.


                                                        5
Medicare Payments for Nail Debridement Services                                                  OEI-04-99-00460
Sample Selection

          We used the CMS 1 percent National Claims History File to identify Medicare nail
          debridement claims (CPT code 11720 and 11721) paid during the first quarter of Calendar
          Year 2000 (January 1, 2000 to March 31, 2000).1 From this universe of 14,893 nail
          debridement claims, we selected a simple random sample of 120 claims for medical review.

          Additionally, we determined that nail debridement claims paid by Medicare during Calendar
          Year 2000 were uniformly distributed among the four quarters. Therefore, the number of
          claims paid in the first quarter was typical of claims paid in each of the following three quarters.
          We based our determination of claims distribution on CMS data in the 100 percent National
          Claims History (NCH) file for Calendar Year 1999, and the 1 percent NCH file for Calendar
          Year 2000.

          Because 99 percent of all Medicare nail debridement services are performed by podiatrists2,
          our sample resulted in only claims that had been submitted by podiatrists. However, several
          other types of physicians perform nail debridements.

Data Collection

          For the 120 sample claims, we requested podiatrists to furnish appropriate medical justification
          from patient medical records. Specifically, for the period July 1999 through June 2000, we
          requested:

                               1.   Initial history and physical examination information,
                               2.   All interim history and physical examinations,
                               3.   Beneficiary evaluation or assessments,
                               4.   Physician/consultation notes,
                               5.   Medication and service order sheets, and
                               6.   Nurses notes.

          We reduced our sample by 2 claims (from 120 to 118) because the provider’s identity was not
          readily apparent. The provider did not include a Unique Provider Identification Number
          (UPIN) on the claim.



          1
           Includes all claims processed as of June 30, 2000.

          2
           CMS Part B Extract and Summary System (BESS).

                                                                6
Medicare Payments for Nail Debridement Services                                                   OEI-04-99-00460
          We further reduced our sample by 8 claims (from 118 to 110) because we could not verify that
          podiatrists actually received our request for beneficiary medical records. Attempting to assure
          that the podiatrists received our request, we mailed three separate requests. Receiving no
          response, we then attempted to request the patient records by telephone. However, the
          addresses shown in CMS files were either incorrect or no longer valid. In a final attempt, we
          searched for the podiatrists’ telephone numbers by using various Internet search engines.

          Table 1 summarizes our adjusted sample.


                                                        Table 1
                                          Sample of Nail Debridement Claims

                                                                                     Number

                 Simple Random Sample                                                  120

                 Claims Excluded:
                   Unable to verify provider -- no UPIN on claim                          2
                   Unable to verify provider received medical record request              8

                 Claims Reviewed                                                       110


          Normally, CMS carriers should deny claims that do not have a UPIN, and claims for providers
          who fail to furnish requested medical documentation. While we are concerned about the
          validity of such claims, we did not, however, count the 10 that appear in our sample as an
          inappropriate payment. We simply excluded them from our analysis. This approach provides a
          more conservative estimate of inappropriate payments for nail debridement services.

          Of the 110 podiatrists we contacted, 107 (97.3 percent) responded by providing the
          appropriate medical records. One of the podiatrists who did not provide the medical
          documentation told us that he could not find it. The remaining two did not respond to our
          request at all. Since we verified by telephone that our medical review request had in fact been
          received by the two podiatrists we considered their claims inappropriate for Medicare
          payment.




                                                         7
Medicare Payments for Nail Debridement Services                                               OEI-04-99-00460
Data Analysis

          To determine the medical necessity of the 110 nail debridement claims, we used a medical
          review contractor. The contractor was a practicing podiatrist, and an active member of the
          American Podiatric Medical Association. The medical review contractor determined if the
          Medicare payments were appropriate. This determination was based on the medical necessity
          for nail debridement documented in the claim and in the medical records obtained from
          podiatrists. In making the determination of medical necessity, the contractor used CMS policy
          as criteria for allowed nail debridement service.

          Additionally, for nail debridement claims that were determined to be inappropriately paid, the
          contractor reviewed all other podiatry services billed on the same date of service. The
          contractor determined whether or not the other services were related to, or independent of, the
          nail debridement service. If the service was related to the nail debridement, it would not have
          been performed if the nail debridement had not been performed. Therefore, given that the nail
          debridement service was inappropriately paid, any related podiatry services were also
          determined to be inappropriately paid.

          We summarized the number of sampled claims that our medical review contractor determined
          to lack medical justification, and were therefore inappropriate for Medicare payment. We then
          projected this finding to all nail debridement payments by Medicare during the first quarter
          (January 1 through March 31) of Calendar Year 2000.

          Next, we summarized the extent of related nail debridement services that our medical review
          contractor determined to be inappropriate based on a lack of medical justification for nail
          debridement. We then projected that finding to all nail debridement claims during the first
          quarter of Calendar Year 2000.

          The nail debridement claims paid by Medicare during Calendar Year 2000 were uniformly
          distributed among the four quarters. Therefore, we estimated inappropriate Medicare
          payments for nail debridement services for the entire Calendar Year 2000. We did so by
          multiplying our first quarter results by four. Likewise, we estimated inappropriate payments for
          5 years (Calendar Years 2000 through 2004) by multiplying our first quarter results by twenty.
          All calculations were computed using software for the Statistical Analysis of Correlated Data
          (SUDAAN) and SAS software.



          We conducted this inspection in accordance with the Quality Standards for Inspections
          issued by the President’s Council on Integrity and Efficiency. We conducted our review from
          June 2000 to October 2001.

                                                     8
Medicare Payments for Nail Debridement Services                                               OEI-04-99-00460
                                                       FINDINGS

Medicare Inappropriately Paid about $96.8 Million for Nail Debridement and Related
Podiatry Services


          Almost one-fourth of our sample nail debridement claims did not have adequate medical
          justification. Additionally, more than half of the nail debridement claims lacking adequate
          medical justification had related services that were inappropriately paid.

          Medicare inappropriately paid $51.2 million for nail debridement services in Calendar
          Year 2000

          Almost 23 percent (25 of 110) of our sampled nail debridement claims did not have adequate
          medical justification to support Medicare payment.

          Table 2 shows the number of nail debridement claims for which beneficiary medical records
          lacked medical justification.


                                                  Table 2
                          Nail Debridement Claims That Should Not Have Been Paid

                             Reason for Denying Payment                         Claims   Percent

            Claims Reviewed                                                      110         100.0%

            Medical Records Did Not Support Claim                                19           17.3%
            No Record That Service Was Provided                                   3            2.7%
            Medical Records Not Provided to Justify Claim                         3            2.7%

                                                  Claims Inappropriately Paid    25           22.7%


          Of the 25 claims inappropriately paid, 19 (17.3 percent) were not medically justified because
          they did not contain sufficient documentation to demonstrate that the services were necessary.
          For example, several claims lacked a clinical description of the nails condition, while other
          claims lacked a diagnosis of mycosis.

          Additionally, the medical records for three claims (2.7 percent) had no indication that nail
          debridement services were performed on the date claimed.
                                                                9
Medicare Payments for Nail Debridement Services                                                 OEI-04-99-00460
          Finally, podiatrists did not furnish requested medical records to support another three nail
          debridement claims (2.7 percent). One of the three podiatrists said they could not find the
          beneficiary’s medical record. The other two podiatrists did not respond to our requests.

          We projected the inappropriate claims (22.7 percent) in our random sample to the 1,503,024
          Medicare nail debridement claims submitted from January 1, 2000 through March 31, 2000.3
          Our projection showed that 341,186 claims totaling $12.8 million were inappropriately paid
          during the 3-month period.

          Since the number of nail debridement claims submitted in the second quarter of Calendar Year
          2000 (1,503,024) was consistent with those submitted for the rest of the year4, we estimated
          that Medicare inappropriately paid $51.2 million in Calendar Year 2000 for nail debridement
          claims. For a 5-year period (2000-2004), such inappropriate nail debridement payments
          would cost the Medicare Trust Fund $256 million. See Appendix A for point estimates,
          confidence intervals, and cost estimates.

          Medicare inappropriately paid $45.6 million for related podiatry services in Calendar
          Year 2000

          Our medical review identified 25 inappropriately paid related podiatry services. Fifteen
          inappropriately paid nail debridement claims contained the 25 related podiatry services.

          Related podiatry services are other billable Medicare services associated with nail debridement.
          Related services conducted as a part of nail debridement services include debridement of skin -
          - full thickness, paring or cutting lesions, and topical treatment of nails.

          When payment for nail debridement is determined to be inappropriate, all other payments for
          services related to that nail debridement are also inappropriate. Related services would not be
          performed unless nail debridement was performed. Conversely, appropriate support of the
          need for nail debridement would also support the need for related services.

          We projected the 25 inappropriate payments for related podiatry services from our sample of
          110 claims to the 1,503,024 Medicare nail debridement claims submitted from January 1, 2000
          through March 31, 2000. Our projection showed inappropriate Medicare payments of $11.4
          million for the 3-month period.




          3
              CMS’ 100 percent National Claims History File, as of June 30, 2000.

          4
              CMS’ 1 percent National Claims History File data for Calendar Year 2000.
                                                                10
Medicare Payments for Nail Debridement Services                                                OEI-04-99-00460
          Since the number of nail debridement claims submitted in the first quarter of Calendar Year
          2000 were consistent with those submitted for the rest of the year, we estimated that Medicare
          inappropriately paid $45.6 million for related podiatry services in Calendar Year 2000. For a
          5-year period (2000-2004), inappropriate related service payments would cost the Medicare
          Trust Fund $228 million. See Appendix A for point estimates, confidence intervals, and cost
          estimates.




                                                    11
Medicare Payments for Nail Debridement Services                                              OEI-04-99-00460
 CC                                     RECOMMENDATIONS

          In about one in every four cases, the medical need for nail debridement was not documented in
          beneficiaries’ medical records. Further, more than half of the inappropriate nail debridement
          payments had other related inappropriate payments. Medicare inappropriately paid about
          $96.8 million for such services in Calendar Year 2000.

          Even considering the possibility of poor documentation of medical records, the extent of the
          problem indicates close scrutiny is warranted. At a minimum, the problem suggests medical
          records are not documented as required for Medicare payments. More seriously, it suggests
          that Medicare paid for services not needed and services not provided.

          Accordingly, we recommend that CMS require:

          <	         Medicare carriers to closely scrutinize payment for nail debridement services through
                     medical reviews. Carriers should require podiatrists to adequately document the
                     medical need for all nail debridement services.

          <          CMS carriers to collect the overpayment we found in our sample.

          <	         CMS Regional Offices and carriers to educate podiatrists on Medicare policy for
                     payment of nail debridement claims.




                                                       12
Medicare Payments for Nail Debridement Services                                                  OEI-04-99-00460
                                        AGENCY COMMENTS

          The Centers for Medicare & Medicaid Services (CMS) commented on our draft report. They
          concurred with all recommendations.

          CMS is taking a proactive approach in addressing the recommendations in our report.
          Specifically, they highlighted three initiatives they are implementing:

          <	         CMS will share this report with the contractors in their next vulnerability report. In
                     addition, CMS will work with their contractors and the podiatry community to ensure
                     that podiatrists understand Medicare’s documentation requirements for nail
                     debridement services.

          <	         CMS will direct the appropriate Medicare carriers to recover overpayments for the nail
                     debridement services mentioned in our report.

          <	         CMS will issue a standard article on Medicare nail debridement payment policy and
                     post the article on contractor and CMS Web sites.

          The full text of CMS’ comments on our report are in Appendix B.




                                                       13
Medicare Payments for Nail Debridement Services                                                  OEI-04-99-00460
                                                                        APPENDIX A

                                             January - March 2000
                                    Point Estimate and Confidence Intervals

                                            Point             Lower 95%         Upper 95%


 Nail Debridement                      $12.8 million          $8.3 million     $17.3 million



 Related Services                      $11.4 million          $5.8 million     $17.1 million


                         Total         $24.2 million          $14.1 million    $34.4 million




                             Estimated Inappropriate Medicare Payments


            Period                                Nail           Related            Total

     Jan - Mar 2000
                                         $12.8 million         $11.4 million   $24.2 million
       Projection

     Annual Estimate                     $51.2 million         $45.6 million   $96.8 million


     5 Year Estimate                    $256.0 million        $228.0 million   $484.0 million


  *Projections and estimates are based on a medical review of 110 podiatry claims



                                                         14
Medicare Payments for Nail Debridement Services                                         OEI-04-99-00460
                                                       APPENDIX B




                                                  15
Medicare Payments for Nail Debridement Services                     OEI-04-99-00460
                                                  16
Medicare Payments for Nail Debridement Services        OEI-04-99-00460
                              ACKNOWLEDGMENTS

This report was prepared under the direction of Jesse J. Flowers, Regional Inspector General for
Evaluation and Inspections in the Atlanta Regional Office and Graham D. Rawsthorn, Assistant
Regional Inspector General. Other principal Office of Evaluation and Inspections staff who contributed
include:




Region                                                         Headquarters


Rodney Holliman, Lead Analyst                                  Stuart Wright, Program Specialist

Dwayne Grant, Team Leader
Robert Gibbons, Program Analyst
Gerius Patterson, Program Analyst




                                                  17
Medicare Payments for Nail Debridement Services                                           OEI-04-99-00460
